OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/WEST BANK
AND GAZA’S PALESTINIAN
COMMUNITY ASSISTANCE
PROGRAM

AUDIT REPORT NO. 6-294-13-006-P
FEBRUARY 7, 2013




CAIRO, EGYPT
Office of Inspector General


February 7, 2013

MEMORANDUM

TO:                    USAID/West Bank and Gaza Director, Michael T. Harvey

FROM:                  Regional Inspector General, Catherine Trujillo /s/

SUBJECT:               Audit of USAID/West Bank and Gaza’s Palestinian Community Assistance
                       Program (Report No. 6-294-13-006-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The final report includes seven recommendations to help strengthen the implementation of
USAID/West Bank and Gaza’s Palestinian Community Assistance Program. The mission has
made management decisions on the seven recommendations. Please provide the Audit
Performance and Compliance Division in the USAID Office of the Chief Financial Officer with
the necessary documentation to achieve final action.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
USAID Office Building
1A Nady El-Etisalat Street, off Ellaselki Street
New Maadi
Cairo, Egypt
http://oig.usaid.gov/
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Program Implementation Fell Behind Schedule ..................................................................... 4

     Some Program Activities Did Not Meet Beneficiaries’ Needs ................................................ 7

     Mercy Corps Tracked Too Many Performance Indicators ...................................................... 9

     Reported Results Were Not Accurate .................................................................................. 10

Evaluation of Management Comments.................................................................................. 13

Appendix I—Scope and Methodology ................................................................................... 15

Appendix II—Management Comments .................................................................................. 17

Appendix III— Program Expenditure Summary .................................................................... 24

Appendix IV— Results of Testing of Year 1 Reported Data ................................................. 25

Appendix V—List of Ongoing Activities With Unclear Targets and
Performance Measures........................................................................................................... 27



Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
COGAT           Coordinator of Government Activities in the Territories
CRS             Catholic Relief Services
FY              fiscal year
IT              information technology
RIG             Regional Inspector General
SUMMARY OF RESULTS
The onset of military operations in Gaza in December 2008, known as Operation Cast Lead,
exacerbated desperate conditions for large sections of the population in Gaza. International
donors including USAID responded with immediate humanitarian assistance to meet basic
needs. However, the ramifications of continuing Israeli economic restrictions and Hamas
control in Gaza are still considerable in all parts of daily life—lost agriculture, limited imports,
impeded construction, high unemployment, and emotional trauma.

To help Palestinians build a better future through social and economic relief and recovery in
Gaza, in September 2010, USAID/West Bank and Gaza awarded a 3-year, $100 million
cooperative agreement to Mercy Corps to implement the Palestinian Community Assistance
Program. The goal of the program is to promote a multi-sector strategy to help families in Gaza
meet their immediate and long-term needs, as well as to contribute to ongoing economic and
social recovery. The three major program objectives are to:

1. Address the infrastructure recovery needs of Gazans through tangible improvements in
   community infrastructure and housing.

2. Support economic recovery and development in Gaza through the creation of income-
   generating and business development opportunities.

3. Address the social recovery needs of Gazans through tangible improvements in food
   security, education, health, and psychosocial services.1

As of September 30, 2012, USAID had obligated $64 million and disbursed $41 million to the
program.

Mercy Corps directly implemented some of the program activities and awarded subgrants to
CHF International (CHF), Catholic Relief Services (CRS), American Near East Refugee Aid,
Save the Children Federation Inc., CARE International, International Medical Corps, and
International Orthodox Christian Charities to implement additional activities.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit to determine whether
USAID/West Bank and Gaza’s Palestinian Community Assistance Program was achieving its
main goal to improve the lives of Palestinians in Gaza through humanitarian and recovery
assistance.

The program made some improvement in the lives of Gazans, but fell significantly behind
schedule. The program is unlikely to meet its overall goal to improve the lives of 640,000
Gazans by addressing infrastructure, economic, and social recovery needs in the 15 months
remaining for implementation.

According to the fiscal year (FY) 2012 annual report (unaudited), the program succeeded at
doing the following:

   Rehabilitating 848 homes, exceeding the planned target of 760.
1
  Psychosocial support includes care and support offered by caregivers, family members, friends,
neighbors, teachers, health workers, and community members. It is designed to influence both
individuals and the social environment in which they live.


                                                                                                  1
   Employing 3,325 individuals through cash for work programs, not quite achieving the
    planned target of 3,511.

   Providing internship opportunities for 895 youth, compared with a planned target of 927.

   Reaching more than 11,000 children and caregivers through early education activities,
    achieving 71 percent of the planned target of 15,465.

However, the program struggles to achieve its intended impact in infrastructure and in economic
and social recovery to include humanitarian assistance. The stoppage of work caused by
funding uncertainty resulting from a congressional hold and vetting delays described in the first
finding have hindered achievement of the program’s intended results—most dramatically for
infrastructure.

   Implementation fell behind schedule (page 4). As a result, the program fell short of its
    intended effect and results in these areas:

       Despite plans to have at least ten infrastructure projects completed in the first year, the
        program had yet to complete one.
       At the end of the first year, the program had not met a single target on indicators
        designed to measure business development in Gaza, which is considered critical to
        overall economic recovery. Since then the program has not reported any significant
        progress in business development.
       The program had not provided psychosocial support for children and caregivers or
        humanitarian assistance to vulnerable households as planned.

   Some program activities did not meet beneficiary needs (page 7). Some of the rehabilitation
    work on houses was shoddy, and products distributed by the program—such as soaps,
    detergents, and toothbrushes—were of poor quality. In addition, problems with CRS’s
    process of identifying beneficiaries’ eligibility denied some households distributions to which
    they were entitled.

   Mercy Corps tracked too many performance indicators (page 9). Tracking them strains staff
    time and funding.

   Reported results were not accurate (page 10). The Mercy Corps monitoring and evaluation
    system is not effective, resulting in a high risk that errors in performance data will go
    undetected.

Under this 3-year cooperative agreement, USAID designed a very broad development program,
expecting Mercy Corps to achieve ambitious goals across a range of sectors in a short time.
This expectation has been challenging for Mercy Corps. Compounding the design complexities
is the environment Mercy Corps is working in—an area with an uncertain security situation,
restricted access, and political sensitivity in terms of government permits and approvals.
Furthermore, because of travel restrictions on American USAID staff entering Gaza, the mission
is relying heavily on the implementing partners and has only one local mission staff member
monitoring all programs in Gaza. Therefore, implementers responsible for overall program
management must monitor and evaluate their own progress.




                                                                                                 2
To improve the effectiveness of the Palestinian Community Assistance Program, the audit
recommends that USAID/West Bank and Gaza:

1. Evaluate all planned and ongoing activities to determine their attainability and potential for
   impact in improving the lives of the largest number of beneficiaries in Gaza, and implement
   only those activities that are realistically achievable and will likely have the greatest impact
   (page 7).

2. Require Mercy Corps to implement monitoring procedures to verify the quality of
   rehabilitation work on houses and of nonfood items to be distributed by subgrantees
   (page 9).

3. Evaluate the validity of all performance indicators in writing, and require Mercy Corps to
   report data on those the mission considers most critical to the program outcome and
   document the results (page 10).

4. Implement a comprehensive monitoring program to track the status and provide oversight of
   mission activities in Gaza (page 12).

5. Require the agreement officer’s representative (AOR) to conduct and document periodic
   reviews of data in the mission’s data tracking system for the Palestinian Community
   Assistance Program (page 12).

6. Require Mercy Corps to implement a corrective action plan to strengthen internal controls in
   its data collection, consolidation, verification, and reporting processes (page 12).

7. Require Mercy Corps to define the performance measure and target for each activity
   indicator in writing and, using the newly defined performance measure, review and correct
   any erroneous data it previously reported to the mission and document the results
   (page 12).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is included on page 13, and the full text of management
comments is in Appendix II.




                                                                                                 3
AUDIT FINDINGS
Program Implementation Fell
Behind Schedule
The goal of the Palestinian Community Assistance Program is to improve the lives of 640,000
Gazans by addressing their needs for infrastructure, economic, and social recovery. To meet
these ambitious objectives, Mercy Corps is responsible for implementing activities across six
sectors: economic growth, education, health, humanitarian assistance, infrastructure, and skill
development for youth.

The program has made some improvement in the lives of Palestinians in Gaza, such as
rehabilitating conflict-damaged homes, providing employment opportunities through cash-for-
work activities, and providing after-school tutoring programs and psychosocial support sessions
to youth and caregivers. However, it has fallen significantly behind schedule, diminishing the
likelihood that it will meet its overall goal.

Contributing to the delays were issues beyond and within the mission’s and implementing
partners’ control. For example, congressional constraints on funding and vetting delays slowed
implementation of activities across all sectors. In August 2011, the U.S. Congress placed a hold
on the appropriated funds in support of the Palestinian Authority.2 The suspension of funding
over the ensuing 8 months forced a stoppage of work of all planned program activities. The
mission instructed the program to scale back implementation and prioritize activities on the
ground.

In addition, complying with Executive Order 13224, “Blocking Property and Prohibiting
Transactions With Persons Who Commit, Threaten to Commit, or Support Terrorism,” delayed
the program. Mercy Corps could not vet proposed partners on projects until USAID approved
the projects—a lengthy process before implementation. When an anomaly in the process was
discovered during implementation, the mission decided (with the approval of USAID/Washington
and out of an abundance of caution) to re-vet all ongoing assistance. Re-vetting seriously
delayed implementation of planned activities.

As described below, other delays caused Mercy Corps to struggle to implement infrastructure,
economic, and social recovery activities.

Infrastructure Recovery. USAID and Mercy Corps planned to complete at least 40 community
rehabilitation and development projects throughout Gaza during the 3-year award, including
health clinics, women’s centers, child-friendly spaces, water and sanitation works, youth
centers, and other community facilities. Mercy Corps’ partner, CHF, had primary responsibility
for rehabilitating or constructing community infrastructure and rehabilitating conflict-damaged
homes. CHF planned to complete 20 projects and use subcontractors to complete another 20.


2
  USAID FY 2011 Congressional Notification No. 133, August 18, 2011. In late December 2011, only
$40 million in FY 2011 Economic Support Funds was released. The remaining $147 million in FY 2011
funding was released to USAID/West Bank and Gaza for obligation after the Secretary of State
interceded in April 2012.



                                                                                               4
According to its performance monitoring and evaluation plan, Mercy Corps’ target was to
improve access to municipal services for 60,000 people, with CHF expected to complete ten
infrastructure projects in the first year. Mercy Corps and CHF expended time and resources
during FY 2011 and most of FY 2012 identifying and designing projects, seeking the approval of
the Israeli Coordinator of Government Activities in the Territories (COGAT),3 and processing
vetting requests for proposed activities. Because of delays during the first 21 months, the
program will not achieve its intended results. As of July 2012—22 months into this 36-month
program—CHF had awarded only five infrastructure subcontracts and had not started even one
infrastructure project. Besides the factors cited above, there were other causes for delays.

   Approvals for bringing goods into Gaza. The COGAT approval process for all goods
    entering the Gaza Strip contributed to delays. For example, in one case CHF received
    COGAT approval in November 2011 for a list of goods submitted in July 2011 to construct a
    multipurpose hall.

   Lengthy project review and approval. In its agreement with Mercy Corps, USAID reserved
    the right to review and approve any contract or subcontract in excess of $25,000 with a non-
    U.S. organization, as well as any grant or subgrant to a non-U.S. organization or individual
    regardless of the dollar value. Mercy Corps did not factor in required time for USAID’s
    review and approval for each of the proposed projects on top of the standard vetting. In one
    case, the requirement caused a 2-month delay: CHF submitted proposed projects on
    February 2011, and USAID did not approve them until the end of April 2011.

   Change in implementation strategy. The mission changed CHF’s implementation strategy
    from working directly with municipalities to working with civil society organizations. This
    change resulted in a more complicated and time-consuming process, delaying project
    selection.

The Government of Israel’s requirement that implementers obtain approval to import
construction materials is beyond USAID’s control. However, the need for a mission official to
approve projects and the mission’s revision of the strategy for selecting projects were within the
control of the mission, Mercy Corps, and CHF and interfered with completing 40 projects over a
3-year period.

Economic Recovery. A second objective was to support economic recovery and development
in Gaza through the creation of income-generating and business development opportunities.
Because USAID expected Mercy Corps to cover broad areas under this objective, Mercy Corps
went beyond supporting beneficiaries with a cash-for-work component. It planned to focus on
ways to provide short- and medium-term employment for Gazan youth by developing their skills
in areas such as data entry, staffing call centers, data digitization, technical drawing,
accounting, and financial services. In the agriculture sector, Mercy Corps planned to identify
opportunities for those involved in animal and plant production to increase output, add value,
and gain better access to markets in high-potential subsectors. Lastly, Mercy Corps planned to
support the development of 400 small and medium-size enterprises through training, capacity
building, and business partnership development.

By the end of the first year, the project had not met a single indicator target for business
development. In the second year, USAID and Mercy Corps changed some project activities and
3
 According to the Web site of Israel’s Ministry of Defense, COGAT (a unit of the ministry) “facilitates the
activities of international organizations” involved in projects like those under the program.


                                                                                                         5
indicators because of the congressional hold on the appropriated funds. As of March 31, 2012,
Mercy Corps had expended $234,000 to support business development but with limited results.
In a memorandum on the business development activities, the mission’s AOR gave this
negative assessment:

        This component of the program is one of the weakest areas. While the project
        was able to train some businesses and workers, it fell significantly short of [the]
        overall target, no business partnerships were established, and very little
        substantive work was accomplished in promoting private sector development.
        Training to improve workforce skill levels is proceeding but the portion exclusively
        focused on youth did not move forward as planned.

The AOR went on to say that complying with antiterrorist vetting requirements had delayed the
skill training.4 In his opinion, the economic recovery goals could be adversely affected if the
program cannot revitalize the business development component.

Asked about the missed targets, Mercy Corps officials said they had a hard time recruiting
training staff and getting projects approved. The person Mercy Corps chose to be training
director turned down the position at the last minute, delaying the recruitment of other training
staff. Delays in getting approval for proposed projects hindered program results. To manage
around these difficulties, Mercy Corps adjusted the indicators by deleting those showing no
progress and modifying others. Even with the adjustments, as of June 30, 2012, Mercy Corps
had supported only one professional association with capacity strengthening.

With all these challenges and delays, the mission should reevaluate what is feasible to
accomplish within the last 15 months of the award and make critical decisions on how best to
implement activities that could have the greatest impact in improving the lives of the Gazan as
intended.

Social Recovery. A third objective addressed the social recovery needs of Gazans through
tangible improvements in food security, education, health, and psychosocial services. Of the
budgeted $17 million for social recovery activities, Mercy Corps proposed enhancing formal and
informal education for children and youth by offering tutoring programs, providing materials and
other assistance, promoting recovery and resilience by encouraging community engagement in
youth sports, and providing psychosocial support for children and caregivers. Mercy Corps also
intended to provide humanitarian assistance to the most impoverished families in the Gaza Strip
by giving out non-food items.

As of June 30, 2012, 21 months into this 36-month program, the program was not providing
either psychosocial support for children and caregivers or humanitarian assistance to vulnerable
households as Mercy Corps planned. As a result, the program fell short of its intended results
in two specific areas, psychosocial support to children and caregivers and the distribution of
humanitarian assistance.

For the psychosocial support area, according to Mercy Corps, vetting organizations providing
psychosocial services to caregivers and children caused the major delay in implementing

4
  Executive Order 13224, signed September 23, 2001, “Blocking Property and Prohibiting Transactions
With Persons Who Commit, Threaten to Commit, or Support Terrorism,” requires USAID missions to vet
potential implementing partners to ensure that U.S. assistance is not inadvertently provided to individuals,
organizations, or municipalities affiliated with designated foreign terrorist organizations.


                                                                                                          6
activities. As for not making the intended number of humanitarian assistance distributions to the
most impoverished families in the Gaza Strip, Mercy Corps’ partner, CRS, took longer than
expected in assessing needs for the items, establishing the criteria for beneficiary selection,
verifying the eligibility of selected beneficiaries, and obtaining approvals.

The program likely will not achieve its overall goal to improve the lives of over 640,000 Gazans
by the end of the agreement given the delays, funding uncertainty, and high costs.
Implementing program activities in Gaza is expensive.             For example, the program’s
administrative and support costs amounted to more than $4 million per year. Mercy Corps’
annual expenditures (unaudited) for FY 2011 and 2012 are presented in Appendix III.

Given the challenges, the cost, and the time remaining on the award, the mission should
reevaluate whether the current award design is the appropriate way to achieve the overall goal.
To address these issues for the remainder of the agreement, we make the following
recommendation.

   Recommendation 1. We recommend that USAID/West Bank and Gaza evaluate all
   planned and ongoing program activities to determine their attainability and potential for
   impact in improving the lives of the largest number of beneficiaries in Gaza and
   implement only those activities that are achievable and likely to have the greatest
   impact.

Some Program Activities Did Not
Meet Beneficiaries’ Needs
The cooperative agreement and the first-year implementation plan called for rehabilitating
houses and distributing humanitarian assistance in the form of nonfood items—for example,
solar lanterns, detergent, and toothbrushes. To accomplish these objectives, Mercy Corps
awarded subgrants to CHF to rehabilitate houses and to CRS to distribute humanitarian
assistance.

RIG/Cairo contracted with a local independent public accounting firm to conduct site visits in
Gaza and interview beneficiaries to determine whether CHF and CRS were meeting the
beneficiaries’ needs. The audit disclosed problems with some of the home rehabilitations and
distributed items, as well as problems with how CRS selected eligible beneficiaries. These
issues are described below.

Rehabilitated Homes. CHF planned to complete 400 major housing rehabilitation projects.
Because of the delays in getting approval from COGAT to bring dual-use goods into Gaza
(goods seen as having both civilian and military uses) and because of the congressional hold on
funds, CHF requested and received mission’s approval to refocus the residential rehabilitation
program on the provision and installation of window frames, window glass, and doors. Because
less rehabilitation work was required, CHF was able to exceed its target of 100 conflict-
damaged homes during the first year.

Yet meeting the quantitative targets did not translate into qualitative success. The audit firm
contracted by RIG/Cairo interviewed 29 of the 5,166 beneficiaries reported by Mercy Corps.
The interviews, conducted in the beneficiaries’ homes, included questions about the quality of
work performed and whether the work met beneficiaries’ basic housing needs. Six of 29
beneficiaries reported not being satisfied with the work:


                                                                                               7
   Two beneficiaries reported that the contractor did not properly install the windows, leaving
    big gaps between the window frames and the wall. The photo below shows an example of
    the poor installation.

   One beneficiary reported that water leaked through the walls after the construction was
    completed.

   One beneficiary reported that his house was not livable after the rehabilitation.

   Two beneficiaries reported delays of up to a year waiting for the contractor to rehabilitate
    their houses.




                    Installed window has large gaps between the
                    window frame and wall. (Photo by audit firm
                    contracted by RIG/Cairo)

Mercy Corps was not aware of the poor window installation because it did not provide sufficient
oversight during rehabilitation. In addition, CHF, the subgrantee, subcontracted the installation
work and accepted the final completed projects without inspecting the work performed. As a
result, the rehabilitation did not meet the needs of the beneficiaries.

Distributions of Nonfood Items. CRS was responsible for distributing nonfood items to
female-headed households and households with disabled family members. The items were
supposed to meet the needs of 5,000 households. The audit firm contracted by RIG/Cairo
interviewed 14 judgmentally selected beneficiaries to verify whether the distribution had met
their needs, and all 14 responded negatively. Beneficiaries complained that the solar lanterns
distributed did not work, the detergent did not clean properly, and toothbrushes distributed were
of such poor quality they were unusable.

Other beneficiaries complained that their distributions stopped because CRS had the wrong
information concerning their eligibility. After the first distribution, CRS was supposed to visit
beneficiaries to determine their eligibility for receiving additional assistance. Of the 14
beneficiaries interviewed, 4 said CRS did not contact them for a second visit. CRS’s records
showed these beneficiaries were ineligible for further distributions because they were either
working or owned a business. Although this was not the case, the four received no additional
items.




                                                                                               8
When we notified CRS of these complaints, CRS officials said subsequent distributions would
include items of better quality. However, officials could not explain why CRS had incorrect
information on the status of the four beneficiaries.

Mercy Corps could have prevented the above issues had it done a better job of monitoring
program activities implemented by its subgrantees. Effective monitoring would have confirmed
whether the housing rehabilitation and nonfood items met the needs of the beneficiaries,
avoiding the waste of funds. To address these issues, we make the following recommendation.

    Recommendation 2. We recommend that USAID/West Bank and Gaza require Mercy
    Corps to implement monitoring procedures to verify the quality of completed housing
    rehabilitation work done and of nonfood items to be distributed by its subgrantees.

Mercy Corps Tracked Too Many
Performance Indicators
USAID uses performance indicators to track progress toward objectives. According to
Automated Directives System (ADS) 203.3.4.2,5 USAID’s development objective teams should
have as many indicators in their performance management plan as are necessary and cost-
effective for managing and reporting purposes. The guidance suggests that in most cases two
or three indicators per result should be sufficient to assess performance. In rare instances,
when the team narrowly defines a result, a single indicator may be adequate. Additionally, too
many indicators may be worse than too few, because of the cost of collecting, analyzing,
reporting, and using data on all performance indicators.

USAID identified three program recovery objectives: infrastructure recovery, economic
recovery, and social recovery. As illustrated in the table below, under these objectives USAID
formulated 11 intermediate objectives that Mercy Corps was responsible for managing. Mercy
Corps designed 41 program performance indicators for FY 2011 to measure and report the
results of its activities implemented under these 11 intermediate objectives. The USAID
mission, however, reports on only 12 of the 41 indicators to USAID/Washington.

                            Program and Intermediate Objectives
                                      Program Objectives
       Infrastructure Recovery         Economic Recovery               Social Recovery
                                    Intermediate Objectives
     Community infrastructure                                    After school and
                                 Agribusiness development
     rehabilitation                                              accelerated learning
                                                                 Sports-based youth
     Rehabilitation of houses    Cash for work
                                                                 development
                                 Technical skills training and   Psychosocial support to
                                 professional development        children and caregivers
                                                                 Distribution of humanitarian
                                 Business development
                                                                 assistance
                                                                 Health supplies



5
 The version of ADS quoted was in effect at the time of the audit.    ADS 203.3.4.2 was revised
November 2, 2012.


                                                                                                9
Managing data on 41 performance indicators is labor-intensive and costly. For example, Mercy
Corps has been consolidating data for each of 317 program activities taking place in Gaza and
capturing the results by type of activity—for example, non-formal education, grant assistance to
households, and enhancing food security. Within types, Mercy Corps has managed data on
168 activity indicators and reported results on 61 of those. Then, Mercy Corps has sorted and
consolidated results reported on each activity indicator to report program results under the
appropriate performance indicators. The Mercy Corps official in charge of the reporting process
said the level of detailed information required for each activity indicator was overwhelming, and
his team found it difficult to keep up with the reporting requirements. This problem has affected
data quality: results reported to the mission contained errors (page 10).

Mercy Corps expanded the number of indicators to accommodate frequent USAID/Washington
requests for detailed program information because of the politically sensitive nature of the
program. Still, this level of reporting is an inefficient use of program resources. The AOR also
expressed concerns about the large number of new indicators that Mercy Corps was reporting
on from its subgrantees and asked Mercy Corps to focus on indicators with larger impact.
Therefore, we recommend the following.

   Recommendation 3. We recommend that USAID/West Bank and Gaza evaluate the
   validity of each of the program activity and performance indicators in writing and require
   Mercy Corps to manage and report data on those considered most critical to tracking
   program outcome and document the results.

Reported Results Were Not Accurate
According to ADS 203.3.11.1, performance data have to meet five quality standards—validity,
integrity, precision, reliability, and timeliness. These standards mean that data should clearly
represent the intended result, be collected in a way that minimizes transcription error and
manipulation, be precise, reflect consistent collection methodology, and be current.

However, data reported for the program were not accurate. A review of 25 indicators for
FY 2011 disclosed discrepancies in results reported (page 25). Indicator data stored in Mercy
Corps’ Web-based SharePoint system did not agree with what Mercy Corps reported to USAID
in its annual reports or with what the mission entered into its system. Because mission staff
could not travel into Gaza, RIG/Cairo contracted with an audit firm to conduct data verification,
field visits, and interviews with beneficiaries and implementing partners in Gaza. The firm
tested FY 2011 data in the mission’s data tracking system on the 25 performance indicators
against the source documents (housed in Mercy Corps’ and subrecipients’ offices in Gaza), and
reported discrepancies in 9. Appendix IV includes the results of the contracted audit firm’s
tests.

The contracted audit also disclosed that CHF was not following the established definitions in
reporting results. CHF was not properly reporting the number of beneficiaries trained to improve
food security through poultry production. According to the approved implementation plan for the
first year, CHF planned to teach 300 beneficiaries; however, CHF reported the number of
training sessions provided instead of the number of beneficiaries.

Furthermore, Mercy Corps did not compute results consistently, resulting in unreliable data.
The percentage of completion reported for cash-for-work activities and for information
technology (IT) training activities at five sites did not reflect actual progress. According to Mercy



                                                                                                  10
Corps, for three cash-for-work activities, it measured the percentage of completion by
calculating the actual months passed over the planned duration of the activities. Mercy Corps
did not use the same methodology for the other two activities and could not clearly explain how
it calculated results for those. Furthermore, when the audit firm got different results using Mercy
Corps’ methodology for the three cash-for-work activities, Mercy Corps could not adequately
explain how it had arrived at its results. Appendix V contains the auditors’ results.

The causes for reporting inaccurate data are discussed in detail below.

   Lack of a comprehensive monitoring and evaluation system. Mercy Corps’ proposal to
    implement the program outlined the organization’s plan for monitoring and evaluation.
    Mercy Corps proposed a monitoring and evaluation system that would capture the most up-
    to-date data and track the progress of activities; document beneficiary selection; ensure
    coordination among partners, subgrantees, and other implementers; and provide information
    for evaluating the impact of activities. The Web-based system, as proposed, satisfied
    USAID’s performance and monitoring evaluation requirements. However, Mercy Corps did
    not implement the proposed system. Instead, it relied on a cumbersome process that was
    partly Web-based and partly manual. Every activity generates performance data, and as of
    March 2012, Mercy Corps was required to monitor and report on more than 130 activities.
    By not implementing the proposed system and relying on manual processes to summarize
    so much data, Mercy Corps increased the likelihood of errors.

   Lack of data verification. Both the Mission and implementing partner lack adequate controls
    for verifying reported results. Because Americans on the mission’s staff are not permitted to
    travel into Gaza, the AOR must rely on only one local Mission staff member located in Gaza
    to conduct site visits. Another source of risk is that, before compiling the data submitted by
    its partners and reporting them to the mission, Mercy Corps did not verify the data.
    Independent auditors contracted to conduct field visits for RIG/Cairo confirmed that before
    February 2012, Mercy Corps neither monitored the partners’ data collection procedures nor
    verified the accuracy of the data. This lapse caused the reporting errors relating to training
    sessions (counting training sessions instead of the number of trainees). According to the
    monitoring and evaluation official, the team does not have sufficient time or staff resources
    to perform any testing to verify subgrantees’ data and still meet USAID’s reporting
    deadlines.

   Poor communication. A third contributing factor was a lack of communication with the
    mission. According to Mercy Corps, it did not notify the mission when it identified and
    corrected errors. Not knowing about changes made to reported data, the AOR would have
    been unaware that the mission’s data tracking system did not have the most updated and
    accurate information.

   Excessive amount of data. Managing and reporting an overwhelming number of indicators
    increased the risk of human error. Moreover, the sheer amount of data collection occupied
    so much time and effort that monitoring took a backseat. In FY 2012, the number of
    reporting discrepancies increased because the number of indicators increased with the
    start-up of subgrantee activities.

   Poor indicator definitions. Mercy Corps did not clearly define the performance measures for
    some program activities and did not use a consistent methodology in computing results.
    Mercy Corps officials acknowledged that the organization’s method of determining the



                                                                                                11
   percentage of completion for the cash-for-work activity described above did not accurately
   report activity progress. Officials agreed to adjust how they calculated progress.

USAID should be able to report how it uses foreign assistance funding and its impact. Such
reporting is not possible without reliable information. To help the mission conduct an effective
impact evaluation of the project, we make the following recommendations.

   Recommendation 4. We recommend that USAID/West Bank and Gaza implement a
   comprehensive monitoring program to track the status and provide oversight of mission
   activities in Gaza.

   Recommendation 5. We recommend that USAID/West Bank and Gaza require the
   agreement officer’s representative to conduct and document periodic reviews of data on
   the Palestinian Community Assistance Program in the mission’s data tracking system.

   Recommendation 6. We recommend that USAID/West Bank and Gaza require Mercy
   Corps to implement a corrective action plan to strengthen internal controls in its data
   collection, consolidation, verification, and reporting processes.

   Recommendation 7. We recommend that USAID/West Bank and Gaza require Mercy
   Corps to (1) define the performance measure and target for each activity indicator in
   writing and, using the newly defined performance measure, (2) review and correct any
   erroneous data it previously reported to the mission and document the results.




                                                                                             12
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/West Bank and Gaza agreed with all seven
recommendations. Summarized below are the comments and the audit team’s evaluation of
them.

Recommendation 1. Mission officials agreed to evaluate all planned and ongoing program
activities to determine their potential for improving the lives of the largest number of
beneficiaries in Gaza and to implement only those activities likely to have the greatest impact.
The mission plans to complete the review and implementation by March 15, 2013. We
acknowledge the mission’s management decision on Recommendation 1.

Recommendation 2. USAID/West Bank and Gaza officials indicated they have informed Mercy
Corps in writing of its responsibility to improve its monitoring procedures to verify the quality of
completed housing rehabilitation work done and of nonfood items to be distributed by its
subgrantees. The mission expected Mercy Corps to complete its corrective actions by April 30,
2013. We acknowledge the mission’s management decision on Recommendation 2.

Recommendation 3. Mission officials agreed to evaluate the validity of each of the program
activity and performance indicators in writing and to require Mercy Corps both to manage and
report on those considered most critical to tracking program outcome and to document the
results. The mission has already begun its corrective actions and plans to complete the process
by April 30, 2013.          We acknowledge the mission’s management decision on
Recommendation 3.

Recommendation 4. USAID/West Bank and Gaza officials agreed to implement a
comprehensive monitoring program of mission activities in Gaza. The mission plans to
complete the corrective actions by March 1, 2013. We acknowledge the mission’s management
decision on Recommendation 4.

Recommendation 5. Mission officials said that the mission already requires all AORs to verify
project data submitted quarterly by implementing partners to the geographic management
information system. To strengthen the existing review process, the mission will deploy a new
geographic management information system that will require an additional level of
review/verification by the AOR to verify the data. The mission intends to complete the corrective
action by March 1, 2013.         We acknowledge the mission’s management decision on
Recommendation 5.

Recommendation 6. USAID/West Bank and Gaza officials agreed to require Mercy Corps to
implement a corrective action plan to strengthen internal controls over data collection,
consolidation, verification, and reporting. The mission will also use the services of its monitoring
contractor to review periodically and confirm that Mercy Corps and its subpartners are
implementing internal controls over performance monitoring and reporting and collecting
documentation in the field that supports data reported. The mission plans to complete the
actions by April 30, 2013. We acknowledge the mission’s management decision on
Recommendation 6.



                                                                                                 13
Recommendation 7. Mission officials agreed to require Mercy Corps to develop a revised
performance management plan that includes modifications to the program, an appropriate and
streamlined number of newly defined performance indicators, and targets. Mercy Corps will use
these revised performance measures to review and correct any erroneous data it previously
reported to the mission and document the results. The mission intends to complete these
actions by April 30, 2013. We acknowledge the mission’s management decision on
Recommendation 7.




                                                                                          14
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/West Bank and Gaza’s Palestinian
Community Assistance Program was achieving its main goal to improve the lives of Palestinians
in Gaza through humanitarian and recovery assistance. The mission awarded Mercy Corps a
3-year cooperative agreement for $100 million on September 30, 2010.                         As of
September 30, 2012, USAID had obligated $64 million and disbursed $41 million. Because this
was a performance audit, looking at project implementation rather than specific financial
transactions, the audit team did not audit a specific portion of the $41 million in disbursements.

The audit covered the period from program inception on September 30, 2010, to September 30,
2012. In planning and performing the audit, we assessed management controls related to
documentation and data verification; reporting; supervisory and management review of program
processes and activities; the program’s performance monitoring plan; and establishment and
review of performance measures and indicators. Controls reviewed included but were not
limited to the program’s performance management plan, the annual work plan, data quality
assessments, AOR files, quarterly and annual reports, and Mercy Corps’ cooperative
agreement, including modifications.

We conducted audit fieldwork at USAID/West Bank and Gaza, in Tel Aviv, and at Mercy Corps’
office in Jerusalem. RIG/Cairo also contracted with a local independent audit firm under an
agreed upon procedures engagement to conduct site visits and interviews in Gaza and report
on the results from March 23 to October 2, 2012.

Methodology
To answer the audit objective, we first identified the program’s main goals and significant
program risks. We met with key personnel at USAID/West Bank and Gaza and Mercy Corps.
We reviewed relevant documentation provided by USAID/West Bank and Gaza and Mercy
Corps. We also reviewed the terms of the agreement and applicable policies and procedures.
We gained an understanding of the program design and of how USAID planned to monitor and
measure the results.

We reviewed USAID/West Bank and Gaza’s and Mercy Corps’ compliance with Executive Order
13224, “Blocking Property and Prohibiting Transactions with Persons Who Commit, Threaten To
Commit, or Support Terrorism,” and with USAID/West Bank and Gaza Mission Order No. 21,
“Anti-Terrorism Procedures” through sample testing. Our antiterrorism compliance testing
included reviews of relevant documentation, such as USAID/West Bank and Gaza’s agreement
with Mercy Corps and eligibility notifications for trainees, subawardees, and grantees. We
tested a sample of subcontracts, grantees, and individuals to ensure that USAID/West Bank and


                                                                                               15
                                                                                           Appendix I


Gaza vetted institutions, trainees, and key subcontractor personnel to ensure that they met the
antiterrorism criteria. We also interviewed the USAID/West Bank and Gaza vetting specialist
and the Mercy Corps vetting specialist.

To verify reported results, we tested all indicators tracked in USAID/West Bank and Gaza’s
reporting system for the project. We traced reported results for all indicators to the
implementing partner’s relevant source documents for FY 2011 and first two quarters of
FY 2012, including monthly tracking spreadsheets from the partner and subgrantees,
beneficiary lists, housing lists, and surveys. Reported results for 18 of 25 indicators were not
considered accurate.

During site visits, the local audit firm verified the existence of reported deliverables, verified that
project sites complied with USAID branding requirements, and observed and discussed the
quality of the construction and equipment. Contract auditors interviewed beneficiaries to gain
an understanding of whether the program was meeting their needs and of their experiences in
working with the implementing partner and USAID. They also ascertained whether beneficiaries
were aware of the source of funding for the projects. The auditors further verified the reported
results submitted by the implementing partner and its subgrantees against the source
documentation kept in their offices in Gaza and confirmed that 9 of the 25 indicators were
inaccurately reported.




                                                                                                    16
                                                                                  Appendix II



MANAGEMENT COMMENTS


UNCLASSIFIED

Date:         January 24, 2013

To:           Regional Inspector General, Cairo, Catherine Trujillo

From:         Mission Director, USAID West Bank and Gaza, Michael T. Harvey /s/

Through:      Acting Deputy Mission Director, Bruce Gelband /s/

Subject:      Mission’s Comments on the Draft Performance Audit Report of the Palestinian
              Community Assistance Program.

              Draft Audit Report No. 6-294-13-XXX-P dated December 26, 2012

Reference:    Duncan/Harvey memorandum dated December 26, 2012


USAID West Bank and Gaza (USAID/WBG) wishes to thank the Regional Inspector
General/Cairo (RIG/Cairo) for conducting the referenced performance audit of the Palestinian
Community Assistance Program (PCAP). The subject draft audit report has been thoroughly
reviewed by the Democracy and Governance Office in collaboration with other offices of the
Mission.

The Mission appreciates this opportunity to comment on the draft audit report and the
recommendations therein as the RIG prepares the final report. The following are the Mission’s
overall comments on the report and responses to each of the seven recommendations.

The PCAP program was designed primarily as a U.S. Government response to the humanitarian
crisis in Gaza during the winter of 2008/2009. The program was wide in scope given the depth
and breadth of the humanitarian needs at the time. The program has achieved impressive results
despite a number of significant challenges in the overarching operational environment and the
Mission’s own funding situation.

USAID awarded the PCAP cooperative agreement to Mercy Corps on September 30, 2010 with
FY 2010 funds. Over the next several months, the program completed its launch activities and
finalized awards with sub-partners. This took longer than originally planned; however, the
program was delivering the full range of planned assistance in Gaza by summer 2011.


                                                                                            17
                                                                                      Appendix II


By the summer of 2011, the Mission was expecting to receive its FY 2011 funding. However,
the congressional notification for FY 2011 ESF funds for West Bank and Gaza was put on hold
by three Congressional committees/sub-committees. Without the second year of funding, PCAP
was forced to demobilize its assistance in Gaza as the Mission awaited FY 2012 funding. As
was the case with most USAID-funded projects in the WBG portfolio, the Mission instructed
PCAP to scale back implementation and prioritize existing interventions. For example, the
PCAP Assistance Officer’s Representative (AOR) directed PCAP to stop implementation of
community infrastructure activities and Non Food Item (NFI) distributions and instead focus
funding on higher priority/shorter term activities. The PCAP demobilization plan was approved
by the AOR at the end of October 2011 and this plan guided the project until the end of April
2012, at which point the process of rebuilding the delivery capacity of PCAP started.

In addition to the demobilization process, PCAP experienced lengthy delays in receipt of vetting
clearances as a result of revised protocols instituted in December 2011.

Despite these challenges, Mercy Corps and its partners met or exceeded many of the revised FY
2012 targets for the program. The lives of more than 269,000 individuals were positively
affected as a result of the Program’s interventions in Year 2 (despite the lack of funding for the
majority of the FY), including 133,999 women and 135,216 men. The Mission continues to
work closely with Mercy Corps to strengthen implementation and monitoring of the PCAP
program. In addition, the Mission initiated a mid-term evaluation of the PCAP program which
was completed in September 2012 and identified opportunities to strengthen the project in key
areas. The mid-term evaluation and the subject audit have provided the Mission with valuable
insights into ways the project can be improved to help Palestinians build a better future through
social and economic relief and recovery in Gaza.

Recommendation No. 1:

We recommend that USAID/West Bank and Gaza evaluate all planned and ongoing program
activities to determine their achievability and potential for impact in improving the lives of the
largest number of beneficiaries in Gaza and implement only those activities that are achievable
and likely to have the greatest impact.

Response:
From November to December 2012, USAID/WBG completed an intensive, comprehensive
review of PCAP’s third Annual Implementation Plan (AIP) which includes all of the activities
proposed for completion prior to September 30, 2013. USAID/WBG’s review of the AIP
included discussions with each of USAID/WBG technical offices, the Program and Project
Development Office, and the Office of Contracts Management to evaluate the achievability and
potential for the greatest impact of each proposed PCAP activity. During the review,
USAID/WBG also took into consideration the results of the PCAP mid-term evaluation and draft
RIG audit recommendations. The PCAP AOR will send written comments which summarize
Mission discussions and directives on the AIP to Mercy Corps by January 31, 2013.

As a result of the RIG audit findings and in line with the larger USAID strategic discussion and
Mission assessment process, significant reductions in the breadth of the PCAP implementation



                                                                                               18
                                                                                    Appendix II


plan have already been made. For example, on December 7, 2012, the PCAP AOR and Mercy
Corps agreed that Mercy Corps would cease all planned residential rehabilitation. On January
11, 2013, the PCAP AOR and Mercy Corps agreed to cease all community infrastructure
activities identified in the third year AIP.

Based on Mercy Corps’ responses and subsequent discussions with the Mission, further revisions
to programming may be required to ensure that only those activities that are achievable and
likely to have the greatest impact are implemented. [Note: to date, USAID/WBG has not yet
received FY 2012 funding and as such, many of the third year AIP activities for PCAP are on
hold until the planned FY 2012 incremental funding is received.] If discussions with Mercy
Corps are completed as planned and the operational environment remains unchanged, the PCAP
AOR expects to provide final approval of the AIP by March 15, 2013, at which point the
Mission’s corrective action to review all planned and ongoing activities to determine their
achievability and potential for impact in improving the lives of the largest number of
beneficiaries in Gaza will be complete.

Recommendation No. 2:

We recommend that USAID/West Bank and Gaza require Mercy Corps to implement monitoring
procedures to verify the quality of completed housing rehabilitation work done and of nonfood
items to be distributed by its subgrantees.

Response:
On January 14, 2013, the PCAP AOR informed Mercy Corps in writing of its responsibility to
improve its own monitoring procedures to verify the quality of completed housing rehabilitation
work done and of nonfood items to be distributed by its sub-grantees.

In order to address weaknesses in its monitoring and evaluation (M&E) systems, Mercy Corps
has developed new procedures to improve its ability to collect, verify, and report information.
USAID/WBG is scheduling an internal review of Mercy Corps’ M&E processes and procedures
to be completed by February 15, 2013. Based on the results of this review, Mercy Corps will
take the necessary actions to strengthen their internal controls in this area and to address any
weaknesses found. The corrective action and a timeline for addressing weaknesses will be
agreed to with Mercy Corps. Final action by Mercy Corps is expected to be completed by April
30, 2013.

For additional information regarding the actions the Mission is taking to improve monitoring of
Gaza projects, see the response to recommendation number four.

Recommendation No. 3:

We recommend that USAID/West Bank and Gaza evaluate the validity of each of the program
activity and performance indicators in writing and require Mercy Corps to manage and report
data on those considered most critical to tracking program outcome and document the results.

Response:



                                                                                             19
                                                                                      Appendix II


In addition to its review of the third year AIP, the PCAP AOR worked with Mercy Corps
between September-December 2012 to redefine the performance management plan (PMP) to
reflect modifications to the program and select appropriate project and performance indicators.
The overall number of indicators has been streamlined as well. To-date, the PCAP AOR and
Mercy Corps have reduced the number of program and performance indicators from 63 to 50
(excluding disaggregation), making the management and tracking of indicator reporting
significantly more focused.

Further evaluation and review of the validity of each program and performance indicator will
take place following the approval of the third year AIP which is expected, as stated above, in
mid-March 2013. This evaluation and review will be documented in writing as part of the
approval of a revised year three PMP which will correspond to the year three AIP. As discussed
above, the final AIP will reflect only those planned and ongoing activities that will achieve
maximum impact in improving the lives of the largest number of beneficiaries in Gaza, should
operational and security conditions remain unchanged.

Given the changes made to the AIP in the past two months (e.g., the cancellation of all planned
residential rehabilitation and community infrastructure activities) and the discussions underway
about the remainder of the activities proposed in the year three AIP, it is likely that the number
of program and performance indicators will be further reduced prior to the final approval of the
PMP. The Mission’s corrective actions on this recommendation will be completed by April 30,
2013.

Recommendation No. 4:

We recommend that USAID/West Bank and Gaza implement a comprehensive monitoring
program to track the status and provide oversight of mission activities in Gaza.

Response:
In the past year, Mission management has focused attention and Mission resources on
strengthening internal controls with a focus on project monitoring systems to ensure that data is
accurately gathered, reviewed, and reported for all USAID/WBG projects. The USAID/WBG
Program and Project Development Office created a Monitoring and Evaluation Team which is
developing the Mission’s expertise and experience in this critical area. The Mission supports a
comprehensive monitoring program for all USAID-funded projects in the West Bank and Gaza
which includes regular reviews of reporting documentation provided by implementing partners
(including video and photographic material), data quality assessments, annual portfolio reviews,
and regular consultation with partners. The USAID/WBG Monitoring and Evaluation Team has
provided tools and training for Mission CORs/AORs to improve their skills in monitoring project
activities in line with Agency and Mission standards.

Due to the unique operational environment in Gaza, the monitoring and evaluation team have
been working with the CORs/AORs that manage activities in Gaza to strengthen the monitoring
processes employed for Gaza activities. This includes the development of quarterly monitoring
plans, the completion of site visits and spot checks, and the requirements for periodic reporting
(e.g. the quarterly reporting for the USAID Geographic Management Information System –



                                                                                               20
                                                                                      Appendix II


Geo-MIS). As a result of travel restrictions to Gaza for those under Chief of Mission authority,
USAID/WBG also relied heavily on the Mission’s Gaza Monitoring Specialist during the audited
period to conduct regular site visits, review monitoring systems, and meet with beneficiaries to
review achievement of results and verify partners’ reporting of those results.

As described in their delegation of authority letter, project CORs/AORs are responsible for
monitoring project activities. PCAP monitoring includes the periodic review of project data
reported by Mercy Corps, enhancements to USAID/WBG’s geospatial reporting system (Geo-
MIS), utilizing the USAID Gaza Monitoring Specialist to monitor activities in Gaza, and
reviewing Mercy Corps’ internal control procedures for data collection, verification, and
reporting. The Mission requires the PCAP program’s AOR to verify data submitted by Mercy
Corps into the Geo-MIS reporting system on a quarterly basis.

To strengthen this review process, in February 2013, a new Geo-MIS system will be deployed in
the Mission which will require an additional level of review/verification by CORs/AORs to
ensure the accuracy of data. This new data verification process requires that the AOR review
and electronically verify that the data submitted by implementing partners is accurate. As part of
this review process, AORs are expected to verify, to the extent practicable, that activities and
data reported by implementing partners is accurate. Like other Mission projects, Mercy Corps
and the PCAP AOR will have the benefit of this improved project reporting, review, and
verification process.

On January 3, 2013, USAID/WBG initiated a new monitoring mechanism to provide additional
monitoring services for USAID-funded projects in Gaza. With this new mechanism in place,
USAID/WBG will confirm the reliability and effectiveness of the Gaza-based implementing
partners’ internal controls over their performance monitoring and reporting systems; confirm the
accuracy of the implementation data reported by each implementing partner into Geo-MIS;
confirm the compliance and quality of implementing partners’ internal controls over
performance monitoring and reporting systems; and collect documentation in the field that
supports data reported to USAID/WBG. The work of independent third-party monitors provides
USAID/WBG with another method of verifying that the project implementation progress and
data prepared and reported by implementing partners is accurate.

By implementing the actions detailed above, USAID/WBG is confident that PCAP’s reported
data will be gathered, reviewed, and reported in a manner that yields accurate and reliable
results. The corrective actions for this recommendation will be completed by March 1, 2013.

Recommendation No. 5:

We recommend that USAID/West Bank and Gaza require the agreement officer’s representative
to conduct and document periodic reviews of data on the Palestinian Community Assistance
Program in the mission data tracking system.

Response:
USAID/WBG already requires all Mission CORs/AORs to verify project data submitted by
implementing partners to the Geo-MIS system on a quarterly basis. By checking this



                                                                                               21
                                                                                        Appendix II


information in GEO-MIS, the CORs/AORs verify that the activities described in GEO-MIS are
part of the approved AIP, are accurate, and are in compliance with all USAID rules and
regulations. Given the lack of access of USAID staff to Gaza, the AOR’s ability to verify that all
activity and data reported in GEO-MIS is accurate is extremely difficult. The AOR employs a
variety of other means to verify data, to the extent possible, including review of semi-monthly
partner reports, review of Mercy Corps’ monthly monitoring reports, and coordination of
monitoring visits of PCAP activities by the Mission’s monitoring specialist (and now the Gaza
monitoring mechanism). The results of these reviews and monitoring efforts are discussed with
Mercy Corps in bi-monthly meetings and any requests for corrective actions are provided to
them (with actions to be addressed in the following bi-monthly meeting).

All USAD/WBG CORs/AORs receive automatic reminders 10 days after the end of a fiscal
quarter reminding them to verify the information in Geo-MIS. To strengthen this review
process, in February 2013, a new Geo-MIS system will be deployed in the Mission which will
require an additional level of review/verification by CORs/AORs to ensure the accuracy of data.
This additional data verification process requires that the AOR review and electronically verify
that the data submitted by implementing partners is accurate. As part of this review process,
AORs are expected to verify, to the extent practicable, that activities and data reported by
implementing partners is accurate. Like other Mission projects, Mercy Corps and the PCAP
AOR will be subject to this improved project reporting, review, and verification process.

The Mission’s corrective actions on this recommendation will be completed by March 1, 2013.

Recommendation No. 6:

We recommend that USAID/West Bank and Gaza require Mercy Corps to implement a corrective
action plan to strengthen internal controls in its data collection, consolidation, verification, and
reporting processes.

Response:
USAID/WBG and Mercy Corps have taken corrective actions already to strengthen Mercy
Corps’ internal controls in its data collection, consolidation, verification, and reporting
processes. To date, and based on initial discrepancies found during the RIG audit, Mercy Corps
re-organized their M&E unit and developed new monitoring and reporting tools and procedures,
including an online reporting database for PCAP. According to Mercy Corps, the online tool
resolves many of the shortcomings of the system. The Mission will conduct spot-checks of the
monitoring system to gauge its effectiveness in resolving identified shortcomings. Mercy Corps’
M&E unit has also been restructured and expanded to (a) ensure adequate staff capacity exists to
handle the monitoring and reporting tasks required of a program of this size and (b) to establish a
segregation of duties, providing for multiple layers of review and internal controls for complied
and reported data, thus ensuring greater accuracy.

Mercy Corps also decentralized Geo-MIS data entry by transferring reporting responsibility to
partners. This does not relieve Mercy Corps of their responsibility to regularly verify and check
the data entered into Geo-MIS by the sub-partners; however, it provides the sub-partners with the
opportunity to submit first-hand information on their respective programs into GEO-MIS—



                                                                                                 22
                                                                                     Appendix II


thereby reducing the likelihood of data entry mistakes and enabling Mercy Corps staff to focus
on other monitoring and quality assurance duties.

To support the development of PCAP monitoring, the USAID Monitoring and Evaluation team
conducted a series of trainings for Mercy Corps and its PCAP sub-partners in the last year. In
March 2012, USAID/WBG provided PCAP implementing sub-partners with training on
Performance Reporting including how to best report on program implementation and significant
milestones accomplishments. In June 2012, USAID/WBG provided Mercy Corps and its sub-
partners Data Quality Assessment training. In September 2012, USAID/WBG provided Mercy
Corps’ M&E Director with on-line training using USAID Adobe Connect on how best to utilize
Geo-MIS for reporting and monitoring purposes. Based on these Mission-provided trainings,
Mercy Corps conducted training for its sub-partners on how to best utilize Geo-MIS. In
November 2012, USAID conducted a follow-up training for the Mercy Corps’ M&E Director on
how to best revise the data imported into Geo-MIS and how to monitor the implementing sub-
partners’ reporting, conduct quality control checks and identify any gaps in the reported
information.

The PCAP AOR will continue to monitor Mercy Corps’ use, and the effectiveness of, the new
systems that Mercy Corps has established under PCAP. The PCAP AOR and the PPDO M&E
Unit will hold regular meetings with Mercy Corps to review its systems and spot-check data
collected by the new system. USAID/WBG will also use the services of its monitoring
contractor to periodically review and confirm the compliance and quality of Mercy Corps’, and
its sub-partners, internal controls over performance monitoring and reporting systems and collect
documentation in the field that supports data reported to USAID/WBG. The Mission’s
corrective actions on this recommendation will be completed by April 30, 2013.

Recommendation No. 7:

We recommend that USAID/West Bank and Gaza require Mercy Corps to (1) define the
performance measure and target for each activity indicator in writing, and (2) using the newly
defined performance measure, review and correct any erroneous data it previously reported to
the mission and document the results.

Response:
In finalizing the PCAP program’s third year implementation plan, the Mission reviewed and
redefined the strategic direction of the PCAP program. A revised performance management plan
(PMP) will be developed and approved that includes modifications to the program, and a
selection of appropriate and a streamlined number of performance, indicators and targets
reflecting the third year implementation plan. The approval of the revised PMP will document
USAID/WBG’s acceptance of the performance measures and targets for each activity indicator.
USAID/WBG will require Mercy Corps to use these newly defined performance measures to
review and correct any erroneous data it previously reported to the mission and document the
results. USAID/WBG will also use the services of its monitoring contractor to collect
documentation in the field that supports data reported to USAID/WBG. The Mission’s
corrective actions on this recommendation will be completed by April 30, 2013.




                                                                                              23
                                                                    Appendix III



               Program Expenditure Summary (Unaudited)
                                  Expenditures
    Cost Category           FY 2011              FY 2012        Total
Contractual/Program
                            9,528,743            20,412,098   29,940,841
Implementation
Administrative & Support
Personnel                   1,676,421             2,267,621    3,944,042
Fringe Benefits               701,274               800,347    1,501,621
Travel                        116,943                80,365      197,308
Equipment                      31,138                44,156       75,294
Supplies                      143,647                27,834      171,481
Other Charges                 429,195               453,929      883,124
Indirect Charges              912,478             1,416,478    2,328,956
Subtotal                    4,011,096             5,090,730    9,101,826
Total                      13,539,839            25,502,828   39,042,667*

* Rounded




                                                                             24
                                                                                                      Appendix IV



               Results of Testing of Year 1 Reported Data
         Performance                                                                     Reported
                                                                           Target for                    Audited
Number    Indicator                Performance Indicator                                Results for
                                                                            FY 2011                      Results
             Code                                                                        FY 2011

                       Percentage of people reporting improved basic                        Not            Not
  1           -                                                               60
                       infrastructure in target communities                             Implemented    Implemented

                       No. of female-headed household benefiting
  2        3.3.3.9a    from U.S. Government (USG)-supported social           2,464       No Data          1,294
                       assistance programming

                       Food insecure benefiting from USG-supported
  3        3.3.3.9b                                                         125,187       82,386         82,386
                       social assistance programming


                       Number of men benefiting from USG-supported
  4        3.3.3.9c                                                         104,110       50,061         50,061
                       social assistance programming


                       Number of women benefiting from USG-
  5        3.3.3.9d                                                         10,114        40,212         40,212
                       supported social assistance programming

                       Other targeted vulnerable people benefiting
  6        3.3.3.9e    from USG-supported social assistance                 30,000         7,025          7,025
                       programming

                       No. of people employed in short-term jobs from
  7         2.2.1      USG-supported social assistance                       2,000         2,201          2,203
                       programming.


  8         2.2.2      Person-days of employment generated                  89,700        87,151         87,375


                       Percent change in the scores of learning skills
                                                                                            Not            Not
  9           -        test amongst trainees of E content and open           60%
                                                                                        Implemented    Implemented
                       source training

                       No. of youths benefiting from internship
  10        2.3.5                                                             600          942            942
                       opportunities

                       Percentage change amongst students in the
  11        3.1.1      learning test scores of math, Arabic and              50%          94.70%         94.70%
                       English subjects

                       Percentage of children showing improvements
  12         3.2       in IT, Management and Leadership                      60%          70.70%         70.70%
                       (Accelerated Learning for Excellence)

                       Percent of participants who demonstrated
  13         3.3       increased resilience as a result of participation     60%           100%          83.30%
                       in sport and game centered activities

                       No. of service providers trained who serve
  14        3.1.2                                                             100          136            136
                       vulnerable people


  15        3.1.3      No. of courses offered                                  6            6              6




                                                                                                                   25
                                                                                                             Appendix IV


               Performance                                                                      Reported
                                                                                  Target for                    Audited
 Number         Indicator                  Performance Indicator                               Results for
                                                                                   FY 2011                      Results
                   Code                                                                         FY 2011

                               No. of children / youths participating in sports
      16           3.2.1                                                             440          235             236
                               and group activities

                               No. of beneficiary children participating in
      17           3.3.1       Community-Based Organization and based               1,500         980             980
                               Psychosocial Support (PSS) sessions

                               No. of beneficiary parents/caregivers
      18           3.3.2       benefitting from PSS and awareness raising           1,500         980             980
                               sessions

                                                                                                   Not          Activity
      19             -         No. of youths receiving vocational training          1,030
                                                                                               Implemented     Suspended


                               No. of private enterprise firms receiving USG
      20           2.4.2                                                             100           70             73
                               assistance (technical and training)


                               Number of work days (Cash for Internship and
      21            2.4                                                            56,100        62,868         62,105
                               internship)


                               Total amount of humanitarian assistance/
      22           3.4.3                                                          1,740,000      435,000        396,487
                               emergency supplies provided


                               Number of learners enrolled in USG-supported
      23           3.1.1                                                            1,570         2,053          2,053
                               after-school accelerated learning activities


                               Number of people benefiting from USG-
      24           3.4.2                                                           35,000        41,872         37,108
                               supported humanitarian assistance distribution


                               Number of people with improved access to                            Not            Not
      25           1.1.1                                                           80,000
                               municipal services                                              Implemented    Implemented



PSS        Psychosocial Support (PSS)
USG        U.S. Government




                                                                                                                          26
                                                                                                      Appendix V


              List of Ongoing Activities With Unclear Targets and
                        Performance Measures (Audited)
                                     No. of          No. of                         Re-         Calculation Method
 Activity      Start     End                                      Reported %
                                  Beneficiaries   Beneficiaries                  computed %     Provided by Mercy
Description    Date      Date                                     Completion *
                                    Planned         Verified                     Completion *         Corps
Cash for                                                                                        14 months passed
               1/4/11   31/7/12         570           615             70             87
Work                                                                                            out of 16 months
Cash for                                              181                                       14 months passed
               1/4/11   31/7/12       1,088                           80             87
Work                                                                                            out of 16 months

Cash for                                                                                        14 months passed
               1/4/11   31/7/12         939           806             70             87
Work                                                                                            out of 16 months.

                                                                                                Design phase (30%)
                                                                                                and training (70%).
Open Source                                                                      Could not be
               1/3/11   31/7/12         150            57             20                        As of May 31, 2012,
Training                                                                         determined
                                                                                                57 out of 150 were
                                                                                                already been trained.

                                                                                                Method measuring
                                                                                                progress calculation
Job Portal                                                                                      not provided. As of
                                                                                 Could not be
Development    1/2/12   30/6/12       3,200           820             20                        May 31, 2012, the
                                                                                 determined
and Launch                                                                                      project design, data
                                                                                                entry, and publishing
                                                                                                were completed.

* These two columns show what Mercy Corps reported as percentage of completion compared
to the auditor’s computation based on actual progress as discussed in the finding on page 10.




                                                                                                                  27
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
